No.: 20-980

In The

Supreme Court of the United States

Veena Sharma (Petitioner)
v.
Santander Bank (Respondent)

On Petition for A Writ of Certiorari to the
U.S. Court of Appeals for the First Circuit
REPLY-BRIEF
by

Veena Sharma (PRO-SE)
10 Wedgewood Drive
Andover, MA 01810
978-290-3275
jaipuri@aol.com

MAR 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

TABLE OF CONTENTS
1. TABLE OF. CONTENTS
2. TABLE OF CITED AUTHORITIES
3. PETITIONER'S REPLY TO BRIEFS OF RESPONDENT
4. STATUTORY PROVISIONS AND RULES INVOLVED
5. STATEMENT OF THE CASE
The State Court Action
Procedural History of the Present Action
The District Court's Memorandum and Order
The Court of Appeal's Judgement
6. REASONS FOR DENYING CERTIORARY
A. There are no Compelling Reasons to Grant a Petition
for Writ of Certiorary
B. The Court of Appeal Did not Err in Affirming the District
Court Dismissal of the Action Without Issuing Summons
to Santander
C. The District Court Properly Dismissed the Action for
Failure to State a Claim
The Statue of Limitations Bars Sharma's Claims
The Doctrine of Res Judicata Bars Sharma's Claims
Sharma Failed to Establish a Private Right of Action
under 18 U.S.C. 656
D. Sharma Failed to Plead Fraud with Particularity
E. The Court of Appeals Could Have Affirmed the Dismissal
of the Action Because it was Frivolous
7. CONCLUSIONS

Page

1
1
1
1
1
1
2

2
3
3
4
4
4
4
5

IA

TABLE OF CITED AUTHORITIES

Page

CASES.
Futera Dev. of P.R., Inc. v. Estado Libre Asociado de P.R.,
144 F.3d 7, 13-14 (1st Cir. 1998)...
Chute v. Walker, 281 F.3d 314, 319 (1st Cir. 2002)
Gonzalez v. United States, 257F.3d 31, 37 (1st Cir. 2001)
Sharma v. Cnty. Mortg., LLC. (19-P-1028): June 23, 2020..
103 Stat. 501 (1989); 18 U.S.C.33293
Id.: 104 Stat. 4861 (1990)
103 Stat. 500 amending 18 U.S.C f1341, 18 U.S.C.f1343...
18 U.S.C.f1344
United States v. Heinz, 790 F.3d 365 (2d Cir. 2015)
United States v. Bogucki, 18-cr-00021-CRB-1,
2018 WL 3219460, at *4 (July 2, 2018)

2
2
2
2
4
4
4
4
4
4

PETITIONER'S REPLY TO BRIEFS OF RESPONDENT

JURISDICTIONAL STATEMENT
I thank the honorable Supreme Court for accepting my Writ of Certiorari.

STATUTORY PROVISIONS AND RULES INVOLVED

Supreme Court Rule 10 (a):
The Petitioner has met all the conditions, as required by law, for granting a Writ of
Certiorari. Respondent should not question the wisdom of honorable Supreme Court
of The United States of America.
28U.S.C. 1915 (e) (2):
I have paid a fee of $300 as required by the rules of honorable Supreme Court. I
have explained in my complain, why my Petition is neither malicious nor frivolous.

STATEMENT OF THE CASE
The State Court Action
The Respondent is misleading and/or lying that the Essex Superior Court Case
(1877CV01631) in Massachusetts has any relationship with my case (20-980) in the
honorable Superior Court of the United States. The case in Essex Superior Court
was against Andover Gardens Condominium Association for wrong doing against an
elderly minority women of Protected Class in Massachusetts.
Procedural History of the Present Action
The Decision of the District Court as well as First Circuit Court was issued without
any Summons. Rules were not followed including Statute of Limitations for bank
fraud (10-years).
C The District Court Memorandum and Order
Attorney Patrick S. Tracey and honorable judge of the District Court conspired to
harm an elderly minority women of Protected Class in Massachusetts.

D. The Court of Appeal's Judgement
The judges in District Court_as,well as the Appeal's Court for_the First,Circuit did
not apply the STATUTE OF LIMITATIONS PROVISIONS (10-YEARS) AS
REQUIRED BY LAW.
REASONS FOR DENYING CERTIORARI
There are no Compelling Reasons to Grant A Petition for Writ of
Certiorari
The honorable Supreme Court of the United States need to correct erroneous
decisions of lower courts as the District Court as well as the Appeals Court
wrongly interpreted Statute of Limitations, Sua Sponte discretionary powers,
and Doctrine of Res Judicata. I HUMBLY REQUEST THE HONORABLE
SUPREME COURT OF THE UNITED STATES OF AMERICA TO
PROVIDE DIRCTIONS TO LOWER COURTS TO INTERPRET THE
LAW CORRECTLY
The Court of Appeals Did not Err in Affirming the District Court's
Dismissal of The Action Without Issuing Summons to Santander
The SUA SPONTE decision by any court for cases, such as this case, where
Respondent has committed crimes of this magnitude by defrauding an elderly
women of protected class are not the rules even though judges have discretionary
powers. The Sua Sponte dismissal for failure to state a claim stands no solid
grounds. The Respondent has pointed to no published case permitting dismissal of
a complaint on the basis of Sua Sponte motion. Such dismissals are erroneous
unless the parties have been afforded notice and an opportunity to amend the
complaint or otherwise respond. Please refer to the following cases:
Futera Dev. of P.R., Inc. v. Estado Libre Asociado de P.R., 144 F.3d 7, 13-14
(1sT Cir. 1998)
Chute v. Walker, 281 F.3d 314, 319 (1st Cir. 2002)
Gonzalez v. United States, 257F.3d 31, 37 (1st Cir. 2001)
Sharma v. Cnty. Mortg., LLC (19-P-1028): June 23, 2020
In Chute, the United States Court of Appeals for the First Circuit went on to say
that Sua Sponte dismissal without prior notice, such as in this case, might be
affirmed only if it's crystal clear that the Petitioner can not prevail and amending
the complaint will be futile. In order to obtain affirmance in such cases, the judge
must show that the allegations are beyond all hopes of redemption.
THE DISMISSAL OF THE COMPLAINT BY PETITIONER WAS BASED
NOT ON THE ALLEGATIONS, WHICH OF COURSE MUST BE TAKEN

TRUE FOR THE PURPOSE OF ANY SUCH PETITION, BUT APPARENTLY
BASED ON FACTS RECITED IN JUDGES'S DECISION, WHICH MAY OR
- MAY-NOT -HAVE---BEEN-TAKENTROM-FINDINGSz-MADE-IN'OTHER---'
CASES OF FRAUD BY A BANK AND/OR BANK EMPLOYEE.

"THE ORDER DISMISSING THE COMPLAINT/PETITION WAS AN ERROR
AND JUDGEMENT THEREFORE MUST BE REVERSED"

C. The District Court Properly Dismissed the Action for Failure to State
a Claim

1. The Statute of Limitations Bars Sharma's Claim
Bank Fraud Statues punishes those who knowingly execute a scheme to
defraud an investor by means of false or fraudulent pretenses,
representations or promises. In 1989 under FIRREA, added the following to
bank fraud statue:
"If the violation affects a financial institution, such person shall be fined not
more than$1,000,000 or imprisonment not more than 30 years or both."
Other changes implemented under FIRREA:
Made Bank Fraud a RICO predicate act.
Extend the Statue of Limitations for all financial institution crimes to
TEN years.
Lengthened sentences to up to TEN years, which terms were tripled the
following year under the 1990 Crime Control Act.
The decision by the Second Circuit will have serious implications for those charged
with financial fraud. This case establishes that the 10-year Statute of Limitations
set forth in 3293 (2) applies to prosecutions of individuals where the affected
financial institution was also a co-conspirator to the fraud. This ruling signals to
individuals that their conduct "affected a financial institution" under section 3293
(2), thereby triggering an extraordinary long 10- year Statute of Limitations.
A provision of FIRREA, 18 U.S.C43293 (2), establishes that the Statute of
Limitations for various offences is extended to 10-years in cases where the conduct

,

at issue "affects a financial institution," and permits the Department of Justice
(DOJ) to bring both civil and criminal cases under the Statute.
The Bogucki Decision serves as a strong reminder of FIRREA's reach that financial
institutions are liable under 10-year Statute of Limitations for criminal and civil
prosecution for actions of their employees.
Following cases are relevant to the Statue of Limitations:
103 Stat. 501 (1989); 18 U.S.C.§3293
Id.: 104 Stat. 4861 (1990)
103 Stat. 500 amending 18 U.S.C.f1341, 18 U.S.C.§1343
18 U.S.C. 1344
United States v. Heinz, No. 13-3119, 2005, 790 F.3d 365 (2nd Cir. 2015)
United States v. Bogucki, 18-cr-00021-CRB-1, 2018 WL 3219460, at *4 (July
2, 2018)
The Doctrine of Res Judicata Bars Sharma's Claims
The Respondent is misleading and/or lying to the honorable Supreme Court as the
case in Essex Superior Court of Massachusetts was not against Santander Bank.
Sharma Failed to Establish a Private Right of Action Under U.S.C.
656
Please refer to explanation in Cl of this reply brief.
Sharma Failed to Prove Fraud with Particularity
The Santander Bank conspired and gave my money to a third party without my
consent/knowledge. IS THIS NOT A FRAUD?
The Court of Appeals Could Have Affirmed the Dismissal of the
Action because it was Frivolous
As explained earlier in this Reply-Brief, the District Court and Appeals Court did
not follow laws correctly including the Statute of Limitations Law for Bank Fraud
(10-Years).

CONCLUSIONS
The Respondent, in it's brief in opposition, has questioned the wisdom of
granting Petitioner's Petition of Writ of Certiorari by the honorable Supreme
Court. It shows that the Respondent has no respect to the honorable Supreme
Court and/or understanding of the laws of Supreme Court.
In table of cited authorities, the Respondent has listed 27 cases. However
only five cases (Nos.: 1,2,10,12, and 13) are related to banks/financial
institutions. None of these five cases involve a fraud created by an employee
of the bank/financial institution.
STATUE OF LIMITATIONS: THE LAW IS VERY CLEAR THAT
STATUE OF LIMITATIONS IN CASES OF A FRAUD/CRIME
CREATED BY A BANK EMPLOYEE IS TEN YEARS.
SUA SPONTE DECISIONS: THE LAW IS VERY CLEAR, THAT SUA
SPONTE DECISIONS AGAINST THE PETITIONER, BY HONORABLE
COURTS WAS AND ERROR.
RES JUDICATA: THE RESPONDENT (SANTANDER BANK) IS
MISLEADING THE. HONORABLE COURTS REGARDING RES
JUDICATA FOR MY PETITION AS THE CASE IN HONORABLE
ESSEX SUPERIOR COURT OF MASSACHUSETTS WAS-NOT
RELATED TO SANTANDER BANK.
"BASED ON ABOVE MENTIONED FACTS, AS EXPLAINED IN REPLYBRIEF, I REQUEST THE HONORABLE SUPREME COURT TO REVERSE
THE DECISION OF HONORABLE APPEALS COURT OF THE FIRST
CIRCUIT. THANK YOU."

Respectfully submitted

Veena Sharma (PRO-SE)
10 Wedgewood Drive

COMMONWEALTH OF MASSACHUSETTS
COUNTY OF

Er...CrE.t-

Andover, MA 01810
Phone:978-290-3275
Email:jaipuri@aol.com
March 11, 2021

/1

Vs:2feet./

On this
day of 4g, 20 g(, before me
fr-G Pre g4-70,
the undersigned notary public, personally appeared #ea•e,
1,,4
, pr• ed to me through satisfactory evidence of
identification, w
ere M4- JettPLAIti<to be the person
whose name I
on the preceding or attached document,
and ackno
o me that (he) (she) signed it voluntarily
for its sta

ch'M

Exp.

r tf.

21;20 n-

